No. 19-7
IN THE
___________

SEILA LAW LLC,
PETITIONER,
V.

CONSUMER FINANCIAL PROTECTION BUREAU,
RESPONDENT.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
__________

BRIEF FOR THE CATO INSTITUTE,
CENTER FOR INDIVIDUAL RIGHTS, AND
AMERICANS FOR PROSPERITY
FOUNDATION AS AMICI CURIAE
SUPPORTING PETITIONER
__________

Michael E. Rosman
CENTER FOR INDIVIDUAL
RIGHTS
1100 Conn. Ave, NW
Suite 625
Washington, DC 20036
(202) 833-8400
rosman@cir-usa.org
December 16, 2019

Ilya Shapiro
Counsel of Record
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

i
QUESTIONS PRESENTED
1. Whether the limitation of the president’s ability
to remove the head of the Consumer Financial Protection Bureau, an independent agency led by a single director, violates the separation of powers.
2. Whether Humphrey’s Executor v. United States
should be narrowed to apply only to purely non-executive officers, to bring removal doctrine in line with the
separation of powers principles embodied in Myers v.
United States and Free Enterprise Fund v. PCAOB.

ii
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICI CURIAE ................................. 1
INTRODUCTION AND
SUMMARY OF ARGUMENT............................... 2
ARGUMENT ................................................................ 5
I.

THE STANDARDS SET IN HUMPHREY’S
EXECUTOR AND SUBSEQUENT REMOVAL
CASES ARE INCONSISTENT............................. 5

II. THE COURT SHOULD CLEAR UP ITS
REMOVAL DOCTRINE BY NARROWING
HUMPHREY’S EXECUTOR TO APPLY TO
NON-EXECUTIVE OFFICERS ONLY .............. 11
A. The Court’s Current Removal Doctrine
Seriously Endangers the Separation of
Powers, as Recognized by Chief Justice Taft
in Myers v. United States ................................ 11
B. Humphrey’s Executor’s Limiting of Myers to
“Purely Executive Officers” Misreads Chief
Justice Taft’s Landmark Opinion ................... 16
C. Bringing Humphrey’s Executor in Line with
Myers Follows from the Court’s Decision in
Free Enterprise Fund v. PCAOB .................... 19
III. THE COURT SHOULD HOLD THE
CFPB’S STRUCTURE TO BE
UNCONSTITUTIONAL ..................................... 21
CONCLUSION .......................................................... 23

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Bowsher v. Synar, 478 U.S. 714 (1986) ..................... 12
Collins v. Mnuchin,
896 F.3d 640 (5th Cir. 2018) ............................ 10, 11
Collins v. Mnuchin, 938 F.3d 553 (5th Cir. 2019) .... 10
Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) ........................................ passim
Humphrey’s Executor v. United States,
295 U.S. 602 (1935) ........................................ passim
In re Aiken County,
645 F.3d 428 (D.C. Cir. 2011) .............. 18, 19, 20, 21
Morrison v. Olson, 487 U.S. 654 (1988) ............ passim
Myers v. United States, 272 U.S. 52 (1926) .. 13, 14, 15
PHH Corp. v. CFPB,
881 F.3d 75 (D.C. Cir. 2018) ................... 9, 10, 21-22
Stern v. Marshall, 564 U.S. 462 (2011)..................... 11
Wiener v. United States, 357 U.S. 349 (1958) ... 7, 8, 17
Constitutional Provisions
U.S. Const. art. II, § 3.................................................16
Statutes
Federal Trade Commission Act, 15 U.S.C. § 47 ......... 6

iv
Other Authorities
Baron de Montesquieu, The Spirit of the Laws (photo.
reprint 2002) (Colonial Press 1900) (1748) ........... 12
Brian Johnson, “Consumer Protection and
Financial Inclusion,” 39 Cato J. 489 (Fall 2019)..... 1
Dan Quan, “CFPB Can Do Better by Fintechs
Than a ‘Policy Tool,’” Am. Banker, Nov. 4, 2019 ..... 1
David A. Crane, Debunking Humphrey’s Executor,
83 Geo. Wash. L. Rev. 1835 (2015) ...................... 5, 9
Federalist No. 51 (Madison) ...................................... 12
Federalist No. 70 (Hamilton) .................................... 12
Federalist No. 78 (Hamilton) .................................... 23
Geoffrey P. Miller, Independent Agencies,
1986 Sup. Ct. Rev. 41 (1986) .................................... 9
M. Farrand, Records of the Federal Convention of
1787 (rev. ed. 1966) ................................................ 12
Madison, 1 Annals of Congress ........................... 13, 14
Neomi Rao, Removal: Necessary and Sufficient for
Presidential Control,
65 Ala. L. Rev. 1205 (2014) .................................... 15
Our History, FTC, https://www.ftc.gov/about-ftc/ourhistory ....................................................................... 5
Thaya Brook Knight, Behind the Latest
Washington War: An Agency That Neither Side
Should Control, N.Y. Post, Nov. 27, 2017 ............... 1
Todd Zywicki and Diego Zuluaga, Public Comment
Regarding CFPB’s Proposed Rulemaking on
Payday, Vehicle Title, and Certain High-Cost
Installment Loans, May 15, 2019 ............................ 1

1
INTEREST OF AMICI CURIAE1
The Cato Institute is a nonpartisan public policy
research foundation dedicated to advancing individual
liberty, free markets, and limited government. Cato’s
Robert A. Levy Center for Constitutional Studies was
established in 1989 to help restore the principles of
limited constitutional government that are the foundation of liberty. Toward those ends, Cato publishes
books and studies, conducts conferences and forums,
and publishes the annual Cato Supreme Court Review.
Cato has devoted significant attention to the Consumer Financial Protection Bureau’s structure and operations. See, e.g., Dan Quan, “CFPB Can Do Better by
Fintechs Than a ‘Policy Tool,’” Am. Banker, Nov. 4,
2019, https://bit.ly/348enr4; Brian Johnson, “Consumer Protection and Financial Inclusion,” 39 Cato J.
489 (Fall 2019), https://bit.ly/2t1BkiW; Todd Zywicki
& Diego Zuluaga, Public Comment Regarding CFPB’s
Proposed Rulemaking on Payday, Vehicle Title, and
Certain High-Cost Installment Loans, May 15, 2019,
https://bit.ly/2YEHFN2; Thaya Brook Knight, Behind
the Latest Washington War: An Agency That Neither
Side Should Control, N.Y. Post, Nov. 27, 2017,
https://bit.ly/38lp6Sn.
The Center for Individual Rights is a public interest law firm based in Washington. It has litigated constitutional issues and has a special interest in the Constitution’s structural protections for liberty. CIR represented respondent Antonio Morrison in United
States v. Morrison, 529 U.S. 598 (2000) (holding that
Rule 37 statement: Both parties issued blanket consents to
the filing of amicus briefs. None of this brief was authored by any
party’s counsel; nobody other than amicus funded its production.
1

2
42 U.S.C. § 1398 exceeded Congress’s enumerated
powers to the extent it authorized a tort lawsuit
against a private individual) and filed an amicus brief
supporting petitioner in Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) (holding that PCAOB’s insulated
structure violated the separation of powers).
Americans for Prosperity Foundation is a 501(c)(3)
nonprofit organization that educates and trains Americans to be courageous advocates for the ideas, principles, and policies of a free and open society. AFPF believes that Humphrey’s Executor was wrongly decided.
This case interests amici because the CFPB’s structure raises significant separation-of-powers concerns.
The separation of powers is critical to the rule of law,
while an agency exercising enforcement powers without political accountability is a major threat to liberty.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Our three branches of government protect liberty
through a system of checks and balances that prevent
any single individual or entity from growing too powerful. During the 20th century, however, Congress began creating “independent” agencies, typically headed
by multiple commissioners appointed by the president.
Those independent agencies skirt the usual system of
checks and balances by exercising elements of all three
branches, frequently without any oversight or control
by anyone, let alone the branch to which the power was
originally entrusted. Transferring government power
to unaccountable and unelected officials has resulted
in unconstitutional agencies that lack the structural
protections of liberty designed by the Framers.

3
One of the most concerning hallmarks of independent agencies is the limits Congress frequently puts on
the president’s ability to remove the officers leading
these agencies. More than 80 years ago, this Court, flying in the face of history and precedent, declared in
Humphrey’s Executor v. United States, 295 U.S. 602
(1935), that such limitations were constitutional with
respect to the recently created Federal Trade Commission. Since Humphrey’s Executor, the Court has continued to uphold limitations on the president’s ability
to remove chief officers of multi-member independent
commissions. But the rationale behind Humphrey’s
Executor and subsequent cases has become muddled,
and the Court’s removal doctrine is now so convoluted
that it is impossible for Congress, the lower courts, or
private actors to anticipate whether a given agency
structure is constitutional. The Court’s recent constitutional-structure rulings, while not revisiting
Humphrey’s Executor directly, have illuminated serious flaws in the case and declined to extend it further.
Into this constitutional confusion, Congress inserted the Consumer Financial Protection Bureau, an
independent agency with a novel and constitutionally
dubious structure. The CFPB is the most independent
of independent agencies, essentially accountable to no
one. A single director heads the CFPB, serving a fiveyear term, removable only for cause. The CFPB does
not even need Congress to provide its funding because
its budget requests are rubber-stamped by another independent agency: the Federal Reserve. The CFPB has
authority over 19 federal consumer-protection laws,
through which it writes regulations, investigates potential violations, and brings enforcement actions in
its own administrative proceedings. The CFPB thus
exercises significant legislative and executive power

4
over consumer finance regulation. That creates serious
constitutional problems for an agency that is unaccountable to the political branches—and, thus, to the
people. The Constitution simply does not permit unaccountable actors to exert such significant and varied
power over an important aspect of American life.
Supporters of the CFPB’s constitutionality—which,
notably, does not include the agency itself—seek refuge in Humphrey’s Executor, arguing that the CFPB is
nothing but a logical extension of that and later cases
upholding removal restrictions of officers heading independent agencies. Petitioner and other amici point
out several key differences between the CFPB and
other, multi-member independent agencies. Lower
courts have struggled to reach agreement on how to
adjudicate this dispute in large part because of the uncertain status of Humphrey’s Executor and lack of clear
direction on removal doctrine. While the reasoning of
Humphrey’s has long since ceased to play a role in this
Court’s jurisprudence, the case remains on life support
because the Court has lacked an opening to revisit it.
Here is that opening. Unless the inconsistencies
among Humphrey’s Executor, Morrison v. Olson, 487
U.S. 654 (1988), and other removal cases are resolved,
similar disputes will continue to divide lower courts,
leaving independent agencies in constitutional limbo.
Some aspects of Humphrey’s Executor are well
taken: those addressing the separation-of-powers issues that would arise if the president could unilaterally remove judicial or legislative officers. But in the
84 years since the case was decided, its overall reasoning has been gutted, leaving it brain dead but still
breathing. It’s time to pull the plug, salvaging the useful parts into a new, more coherent removal doctrine.

5
ARGUMENT
I.

THE STANDARDS SET IN HUMPHREY’S
EXECUTOR AND SUBSEQUENT REMOVAL
CASES ARE INCONSISTENT

Humphrey’s Executor v. United States, 295 U.S. 602
(1935), “paved the way for the modern administrative
state by holding that Congress could constitutionally
limit the President’s power to remove the heads of administrative agencies for political reasons.” David A.
Crane, Debunking Humphrey’s Executor, 83 Geo.
Wash. L. Rev. 1835, 1836 (2015). Its “six quick pages”
of reasoning are based, ostensibly, on concern for the
separation of powers, Morrison v. Olson, 487 U.S. 654,
726 (1988) (Scalia, J., dissenting), but the case created
more separation-of-powers problems than it solved.
Humphrey’s concerned the Federal Trade Commission, which was created by the 1914 Federal Trade
Commission Act, replacing the Bureau of Corporations. Our History, FTC, https://www.ftc.gov/aboutftc/our-history (last visited Dec. 14, 2019). At the time
of Humphrey’s Executor, the FTC’s “sole capacity” was
administering federal antitrust law. Crane, supra, at
1836. Unlike traditional executive branch agencies,
the FTC was headed by a multi-member commission,
with each commissioner nominated by the president,
confirmed by the Senate, and serving staggered terms
in office. Humphrey’s Executor, 295 U.S. at 623.
The Court took note of the powers held by the FTC
at the time. In enforcing federal antitrust law, the FTC
could “issue a complaint stating its charges” against
the person or entity, who then received a hearing to
“show cause why an order to cease and desist” the al-

6
legedly anti-competitive practice “should not be issued.” Humphrey’s Executor, 295 U.S. at 620. Further,
the FTC had “wide powers of investigation in respect
of certain corporations subject to the act,” with the aim
of reporting its findings to Congress for consideration
of future legislation. Id. at 621. Finally, in antitrust
suits brought by the attorney general, the presiding
court could refer the suit to the FTC to act as a “master
in chancery” to determine appropriate relief, which
“the court may adopt or reject.” Id. (quoting § 7 of the
FTC Act, 15 U.S.C. § 47).
The Humphrey’s Executor Court described these
statutory duties as “neither political nor executive, but
predominantly quasi-judicial and quasi-legislative,”
emphasizing the “non-partisan” and “expert” aspects
of the commission. Humphrey’s Executor, 295 U.S. at
624. Only four pages later, the Court again stressed
that the FTC, “[i]n administering the provisions of the
statute in respect of ‘unfair methods of competition,’”
acted “in part quasi-legislatively and in part quasi-judicially.” Id. at 628. When conducting investigations
and reporting its findings to Congress, the FTC “acts
as a legislative agency.” Id. When acting “as a master
in chancery under rules prescribed by the court, it acts
as an agency of the judiciary.” Id. By contrast, the
Court viewed FTC commissioners as “occup[ying] no
place in the executive department” and “exercis[ing]
no part of the executive power vested by the Constitution in the President.” Id. Any exercise of “executive
function,” which the Court describes as distinguishable from “executive power in the constitutional sense,”
is in the service “of its quasi-legislative or quasi-judicial powers, or as an agency of the legislative or judicial branches of government.” Id.

7
Humphrey’s Executor’s test for limits on the president’s ability to remove agency heads is based on
which power of government the agency exercises.
While the Court concluded that the FTC is quasi-legislative, quasi-judicial, and non-executive, the core of
Humphrey’s is a respect for the separation of powers.
If an agency is “wholly disconnected from the executive
department” and created as a means of “carrying into
operation legislative and judicial powers,” then it follows that the president would not have the inherent,
unlimitable authority to reach into the other branches
to “impos[e] his control in the house of another who is
master there.” Humphrey’s Executor, 295 U.S. at 630.
If the agency exercises “quasi-legislative” or “quasi-judicial” powers, rather than “purely executive” ones,
then Congress may restrict the president’s removal
power in order to protect the non-executive agency
from the executive branch’s control. Id. at 628, 631.
Twenty-three years later, the Court stuck with
Humphrey’s Executor’s reasoning in deciding Wiener v.
United States, 357 U.S. 349 (1958), concluding that the
agency in question was not executive in character. In
Wiener, the Court considered limits on the president’s
ability to remove members of the War Claims Commission, a body created by Congress to adjudicate “claims
for compensating internees, prisoners of war, and religious organizations . . . who suffered personal injury
or property damage at the hands of the enemy in connection with World War II.” Id. at 350. Like Humphrey’s Executor, the Court found that the War Claims
Commission was not an executive agency. Instead, it
“was established as an adjudicating body with all the
paraphernalia by which legal claims are put to the test
of proof,” with its decisions unreviewable by other federal officials or courts. Id. at 354–55. While it was a

8
commission rather than a court of law, that “did not
alter the intrinsic judicial character of the task with
which the Commission was charged.” Id. at 355.
Humphrey’s Executor meant that Congress was constitutionally permitted to limit the president’s power to
remove a member of this judicial or quasi-judicial
agency. Id. at 356. Wiener was decided on the same
separation-of-powers grounds as Humphrey’s.
Thirty years later, and over half a century after
Humphrey’s Executor, the Court made a dramatic shift
in Morrison v. Olson, 487 U.S. 654 (1988). Morrison
addressed a limitation on the president’s ability to remove an independent counsel, which was an office created by Title VI of the Ethics in Government Act. Id.
at 660. Again, the Court found the limitation constitutional, though not for the same reasons as in Humphrey’s Executor or Wiener. The Court acknowledged that
it had “rel[ied] on the terms ‘quasi-legislative’ and
‘quasi-judicial’ to distinguish the officials involved in
Humphrey’s Executor and Wiener from those in Myers
[v. United States, 272 U.S. 52 (1926)],” where the Court
had struck down a limitation on the removal power as
unconstitutional. Id. at 689; see Part II infra. But the
Court went on to write that its “present considered
view [was] that the determination of whether the Constitution allows Congress to impose a ‘good cause’-type
restriction” on the removal power “cannot be made to
turn on whether or not that official is classified as
‘purely executive.’” Id. Instead, the Court framed its
“characterization of the agencies in Humphrey’s Executor and Wiener as ‘quasi-legislative’ or ‘quasi-judicial’” as reflecting its judgment that “it was not essential to the President’s proper execution of his Article II
powers that these agencies be headed up by individuals who were removable at will.” Id. at 690–91.

9
Rather than expressly overrule Humphrey’s and
risk undermining the “fundamental constitutional
charter of the independent regulatory commissions,”
the Morrison Court attempted to retroactively render
its past decisions consistent with the old case. Geoffrey
P. Miller, Independent Agencies, 1986 Sup. Ct. Rev. 41,
94 (1986)). Unlike the “rigid categories” employed in
Humphrey’s and Wiener that classified officers as executive, (quasi-)legislative, or (quasi-)judicial, the
Morrison Court stated that the “real question is
whether the removal restrictions are of such a nature
that they impede the President’s ability to perform his
constitutional duty.” Morrison, 487 U.S. at 691. By the
Morrison Court’s own admission, that test is not the
one on which the Humphrey’s Court relied.
Morrison “cast serious doubt on the continuing relevance” of Humphrey’s Executor. Crane, supra, at
1847. The independent counsel at issue in Morrison
had the power to prosecute, and “[p]rosecution is manifestly a core executive function.” Id. Accordingly, “the
central thrust of Humphrey’s Executor—recasting the
FTC as something other than a law-enforcement
agency—had to be abandoned” to uphold the removal
limitation in Morrison. Id. Humphrey’s Executor was
thus “swept into the dustbin of repudiated constitutional principles” but not overruled. Morrison, 487
U.S. at 725 (Scalia, J., dissenting). Predictably, this
maneuver has caused no shortage of confused and conflicting opinions in the lower courts over three decades,
as judges struggled to apply two manifestly incompatible Supreme Court precedents in removal cases.
Two recent cases illustrate the issue. In PHH Corp.
v. CFPB, 881 F.3d 75 (D.C. Cir. 2018) (en banc), the
D.C. Circuit confronted the very question at issue

10
here. In its en banc opinion, the court retraced the history of Humphrey’s Executor and Morrison, including
the uncertain status of the reasoning in Humphrey’s.
See PHH, 881 F.3d at 87 (“Though the Court in
Humphrey’s Executor and Wiener thus emphasized the
‘quasi-legislative’ and ‘quasi-judicial’ character of the
relevant offices, more recently the Court in Morrison
v. Olson downplayed those particular characterizations of independent agencies.”). In the end, instead of
applying either test in full, the D.C. Circuit merely
compared the CFPB’s structure and removal limits to
the agency structures and removal limits in the Supreme Court’s precedents and concluded that both
were sufficiently analogous to past independent agencies to be constitutional. In the analytical core of the
court’s opinion, “Humphrey’s Executor” appears nearly
twice as often as “Morrison.” See PHH, 881 F.3d at 92–
101. While hardly determinative of the status of either
case, it highlights the unusual status of both. Despite
the Morrison Court’s acknowledgement of the change
in reasoning, Humphrey’s ostensibly remains good
law, requiring courts to reconcile the irreconcilable.
The other case, Collins v. Mnuchin, 938 F.3d 553
(5th Cir. 2019) (en banc), concerned the constitutionality of the structure of the Federal Housing Finance
Agency. The Fifth Circuit found the FHFA unconstitutional but dealt with the incompatibility of Humphrey’s Executor and Morrison in a similar manner to the
D.C. Circuit in PHH. In the portion of the panel decision reinstated by the en banc Fifth Circuit, the court
compared the FHFA structure to both the FTC in
Humphrey’s and the independent counsel in Morrison,
finding neither apposite. Collins v. Mnuchin, 896 F.3d
640, 670–72 (5th Cir. 2018) (partially reinstated by
Collins, 938 F.3d 553). Like PHH, the Collins court did

11
not try to reconcile the Humphrey’s and Morrison
tests. Instead of applying the Morrison test to distinguish the FHFA from the FTC, the court returned to
Humphrey’s-style analysis: “The FHFA—unlike the
FTC—exercises executive functions.” Collins, 896
F.3d, at 670–72. Similarly, the court applied the Morrison test to distinguish the FHFA from the independent counsel. Id. at 672. Like the PHH court, the Collins
court avoided a near-impossible reconciliation of the
Humphrey’s and Morrison tests by limiting each to its
own facts and treating each case as good law. But this
tactic only works so long as both comparisons achieve
the same result. The lower courts have received no
guidance on which test to apply if a removal limitation
passed the Humphrey’s test but failed the Morrison
test, or vice versa. The Court should resolve this issue
and clarify the test to be applied in removal cases.
II. THE COURT SHOULD CLEAR UP ITS
REMOVAL DOCTRINE BY NARROWING
HUMPHREY’S EXECUTOR TO APPLY TO
NON-EXECUTIVE OFFICERS ONLY
A. The Court’s Current Removal Doctrine
Seriously Endangers the Separation of
Powers, as Recognized by Chief Justice
Taft in Myers v. United States
“The structural principles secured by the separation of powers protect” not only the branches of government from each other, but the individual as well.
Stern v. Marshall, 564 U.S. 462, 483 (2011). While
strict adherence to this framework may sometimes
cause the government to be less efficient, that is a feature and not a bug: “The Framers recognized that, in
the long term, structural protections against abuse of

12
power were critical to preserving liberty.” Free Enter.
Fund v. PCAOB, 561 U.S. 477, 501 (2010) (quoting
Bowsher v. Synar, 478 U.S. 714, 730 (1986)).2 Accordingly, each branch was given the “necessary constitutional means . . . to resist encroachments” of the other
branches. Federalist No. 51 (Madison).
Because the Founders feared that the legislative
branch would dominate the other branches, they
sought to “provide fortification” to the executive in the
form of the veto. Morrison, 487 U.S. at 698–99 (Scalia,
J., dissenting). They also “conspicuously and very consciously declined to sap the Executive’s strength in the
same way they had weakened the Legislature: by dividing the executive power. Proposals to have multiple
executives, or a council of advisers with separate authority were rejected.” Id. (citing 1 M. Farrand, Records of the Federal Convention of 1787, pp. 66, 71–74,
88, 91–92 (rev. ed. 1966). See also Federalist No. 70
(Hamilton) (discussing the need for “unity” in the executive). Each branch’s strength is essential to the separation of powers—and that includes the president’s
control over executive-branch officers. Morrison, 487
U.S. at 704 (Scalia, J., dissenting) (arguing that “separation and equilibration of powers” is “the fountainhead” of “appointments and removal jurisprudence”).
The definitive analysis of the need for the separation of powers
for the Framers was Montesquieu’s The Spirit of the Laws (1748).
Montesquieu wrote that “there is no liberty, if the judiciary power
be not separated from the legislative and executive,” just as
“there can be no liberty” “[w]hen the legislative and executive
powers are united in the same person” or group. Baron de Montesquieu, The Spirit of the Laws, 151-52 (photo. reprint 2002) (Colonial Press 1900) (1748)). And, “were the same man or the same
body . . . to exercise those three powers” together, Montesquieu
cautions, “[t]here would be an end of everything.” Id. at 152.
2

13
Humphrey’s Executor deviated from the foundational removal case, Myers v. United States, where the
Court addressed the question of “whether under the
Constitution the President has the exclusive power of
removing executive officers of the United States whom
he has appointed by and with the advice and consent
of the Senate.” 272 U.S. 52, 106 (1926). Chief Justice
Taft’s lengthy decision in Myers concluded that constitutional structure and separation of powers principles
made the president’s removal power “illimitable” regarding officers exercising executive power. “From
[the] division” of powers into three branches, Taft
wrote, “the reasonable construction of the Constitution
must be that the branches should be kept separate in
all cases in which they were not expressly blended, and
the Constitution should be expounded to blend them
no more than it affirmatively requires.” Id. at 116 (citing Madison, 1 Annals of Congress, 497).
Removal, Taft argued, was an executive power and
rested with the president, as it was “incident to the
power of appointment.” Id. at 122. The involvement of
the Senate in the appointment process “was to be
strictly construed” to the power of advice and consent
expressly granted in the Constitution and did not imply any further ability of Congress to infringe on the
executive power. Id. at 118. When the First Congress
debated the issue of presidential removal power, Abraham Baldwin of Georgia noted that vesting in the Senate even part of the appointment power had been
highly controversial for mixing of powers in a single
branch. Id. at 120 (citing 1 Annals of Congress, 557).
Accordingly, Baldwin remarked: “Ought we not, therefore, to be careful not to extend this unchaste connection any further?” 1 Annals of Congress, 557. James
Madison, Taft notes, made the same point:

14
Mr. Madison insisted that Article II by vesting
the executive power in the President was intended to grant to him the power of appointment and removal of executive officers except
as thereafter expressly provided in that Article.
He pointed out that one of the chief purposes of
the Convention was to separate the legislative
from the executive functions. He said: “If there
is a principle in our Constitution, indeed in any
free Constitution, more sacred than another, it
is that which separates the Legislative, Executive and Judicial powers. If there is any point
in which the separation of the Legislative and
Executive powers ought to be maintained with
great caution, it is that which relates to officers
and offices.”
Myers, 272 U.S. at 115–16 (quoting 1 Annals of Congress 581).
The president’s unlimited power of removal of officers exercising his executive power is further emphasized by the Take Care Clause. Chief Justice Taft, who
knew a little bit about the nature of effective executive
power, understood that “when the grant of the executive power is enforced by the express mandate to take
care that the laws be faithfully executed, it emphasizes
the necessity for including within the executive power
as conferred the exclusive power of removal.” Id. at
122. When an agency—independent or otherwise—exercises executive power, such as by suing to enforce
federal law, its officers are exercising the power vested
by the Constitution in the president alone. For that exercise of executive power to be constitutionally valid,
the president must retain ultimate control over its use.

15
Although “[t]he removal power may not provide the
President with every form of control . . . it satisfies a
constitutional minimum for the exercise of executive
power.” Neomi Rao, Removal: Necessary and Sufficient
for Presidential Control, 65 Ala. L. Rev. 1205, 1227
(2014). If a CEO of a company were limited in her ability to remove a lesser officer, that would severely curtail her executive prerogative. Similarly, the president’s ability to remove agency heads at will means
that he can remove them if he disapproves of the officer’s use of the executive power. That leaves ultimate
responsibility for the exercise of executive power with
the president. The public can hold the president accountable for his decisions to remove, or not remove,
agency heads, and the president can control the actions of agencies by removing, or threatening to remove, agency heads who misuse the executive power
delegated to them. If the president is limited in his
ability to remove agency heads, then executive power
exists at least partly outside his control. Instead, it
rests with the agencies and their chief officers—individuals unaccountable to the people. Such a system
has no place in our constitutional structure, which rigidly defines where each power of government vests.
It is for those reasons that the Myers Court concluded that “Article II grants to the President the executive power of the Government, i.e., the general administrative control of those executing the laws, including the power of appointment and removal of executive officers—a conclusion confirmed by his obligation to take care that the laws be faithfully executed.”
Myers, 272 U.S. at 163. An independent agency that is
misapplying the law—in the president’s constitutionally vested, discretionary judgment—is undermining
the president’s constitutional obligations that he took

16
an oath to uphold. Maintaining a system of separated
powers vested in co-equal branches of government requires that boundaries set by the Constitution remain
in place, and that they be enforced by the judiciary.
B. Humphrey’s Executor’s Limiting of Myers
to “Purely Executive Officers” Misreads
Chief Justice Taft’s Landmark Opinion
Humphrey’s Executor is correct with regards to officers who do not exercise executive power. This understanding allows the president to control, through removal, all exercises of executive power vested in him
and to fulfill his constitutional obligation to “take care
that the laws be faithfully executed.” U.S. Const. art.
II, § 3. Humphrey’s would still cover those cases where
an officer truly exercises only (quasi-)judicial or (quasi)legislative power, allowing Congress to protect the
separation of powers by preventing the president from
reaching into the judicial or legislative branches. 3
The Humphrey’s Court determined that FTC commissioners did not exercise executive power. While the
Court likely reached the wrong conclusion on the nature of the FTC, it was asking the correct question:
what power of government does the officer in question
exercise? The Court described the FTC as “an administrative body created by Congress to carry into effect
legislative policies embodied in the statute in accordance with the legislative standard therein prescribed.”
Humphrey’s Executor, 295 U.S. at 628. But if the executive power encompasses anything, it is the power to
“carry into effect” the policies set into law by Congress.
For example, the commissioners in Wiener had entirely adjudicatory powers and a task “intrinsic[ally] judicial [in] character.”
357 U.S. at 355. Accordingly, narrowing Humphrey’s Executor as
we suggest would not require disturbing Wiener.
3

17
Under Morrison, by contrast, there are “no lines.” Morrison, 487 U.S. at 726-27 (Scalia, J., dissenting). Bringing the Court’s removal doctrine in line with Myers
and the Constitution’s separation-of-powers principles
would cure both problems by providing a clear test:
Does the officer exercise executive power?
Myers was a “landmark case” that “reaffirmed the
principle that Article II confers on the President ‘the
general administrative control of those executing the
laws.’” Free Enter. Fund, 561 U.S. at 492. Yet, less
than a decade after it was decided, Humphrey’s Executor “gutt[ed], in six quick pages devoid of textual or
historical precedent for the novel principle it set forth,
[Myers’s] carefully researched and reasoned 70-page
opinion.” Morrison, 487 U.S. at 726 (Scalia, J., dissenting). The Humphrey’s Court attempted to limit Myers
to its facts, opining that Chief Justice Taft’s detailed
opinion decided “only that the President had power to
remove a postmaster of the first class, without the advice and consent of the Senate as required by act of
Congress,” adding that “[t]he office of a postmaster is
so essentially unlike the office now involved that the
decision in the Myers case cannot be accepted as controlling our decision here.” Humphrey’s Executor, 295
U.S. at 626–27. The Court distinguished the two cases
by noting that “[a] postmaster is an executive officer
restricted to the performance of executive functions.
He is charged with no duty at all related to either the
legislative or judicial power.” Id. at 627. The “necessary reach of the [Myers] decision” thus goes only “far
enough to include all purely executive officers. It goes
no farther;—much less does it include an officer who
occupies no place in the executive department and who
exercises no part of the executive power vested by the
Constitution in the President.” Id. at 627–28.

18
In other words, Humphrey’s Executor holds that the
president’s removal power is only limitless if the officer in question exercises “purely executive” power. To
the Constitution’s detriment, that interpretation inverts the Myers test. As recognized in Myers, and by
the First Congress, the test should instead be whether
the officer exercises executive power. Because executive power is vested by the Constitution exclusively in
the president, any officer that exercises executive
power is removable by the president at his discretion.
Instead of finding the FTC’s structure unconstitutional because it mixes at least judicial and legislative
powers, Humphrey’s uses that mix to justify the infringement on executive prerogative. The Humphrey’s
formulation thus encourages both the neutering of the
executive and the direct violation of the separation of
powers. One drop of “quasi-legislative” or “quasi-judicial” authority is somehow enough to justify Congress’s
cutting the president off from the officer who exercises
his executive power. But that allows one separationof-powers issue to open the door to another. By granting quasi-judicial or quasi-legislative powers to an officer who also exercises executive power, Congress can
impermissibly alter the constitutionally mandated
separation and distribution of powers.
Then-Judge Kavanaugh described how Humphrey’s Executor led to a situation where the president
“lacks day-to-day control over large swaths of regulatory policy and enforcement in the Executive Branch”
due to independent agencies with “huge policymaking
and enforcement authority” that can “greatly affect the
lives and liberties of the American people.” In re Aiken
County, 645 F.3d 428, 442 (D.C. Cir. 2011) (Kavanaugh, J., concurring). Under Humphrey’s Executor,

19
these agencies are “democratically unaccountable—
neither elected by the people nor supervised in their
day-to-day activities by the elected President.” Id.
As Justice Scalia noted in his dissent in Morrison,
determining which species of government power an officer exercises is not always easy, and there will be
close cases. Dealing with the close cases of quasi-powers under a clear and definite test is, however, better
than the status quo, where lower courts are faced with
the daunting task of simultaneously following Humphrey’s Executor, Morrison, and the Constitution. By
clarifying the extent to which Humphrey’s Executor remains good law and announcing a clear test for removal doctrine cases, the Court will relieve the lower
courts of the task of navigating a jumbled set of precedents and allow them to return to the “fountainhead”
of the removal doctrine: the separation of powers.
C. Bringing Humphrey’s Executor in Line
with Myers Follows from the Court’s Decision in Free Enterprise Fund v. PCAOB
Narrowing Humphrey’s Executor to better follow
separation-of-powers principles would be in keeping
with the Court’s most recent removal doctrine case,
Free Enterprise Fund v. PCAOB. The Court there did
not “reexamine” the correctness of Humphrey’s Executor or later removal doctrine cases, because the parties
“d[id] not ask” it to. Free Enter. Fund, 561 U.S. at 483.
Here, they are asking.
Although the Free Enterprise Court did not directly
address the constitutionality of its existing precedents,
“there can be little doubt that [its] wording and reasoning are in tension with Humphrey’s Executor and
are more in line with Chief Justice Taft’s majority

20
opinion in Myers.” Aiken County, 645 F.3d at 446 (Kavanaugh, J., concurring). The Free Enterprise Court
refused to extend Humphrey’s and Morrison any further than their holdings required, applying Myers’s
separation of powers-based reasoning to address the
“novel structure” of multiple tiers of for-cause removal
limitations. Free Enter. Fund, 561 U.S. at 496. In a line
that could have come from Myers itself, the Court held
that “[t]he President cannot ‘take Care that the Laws
be faithfully executed’ if he cannot oversee the faithfulness of the officers who execute them.” Id. at 484.
The Free Enterprise Court hits the same notes as
Myers and builds on them, focusing in particular on
the link between the removal power, the Take Care
Clause, and the need for “ultimate responsibility” for
executive power to rest with the president to ensure
popular accountability. Id. at 496–97. “The Constitution requires,” the Court wrote, “that a President chosen by the entire Nation oversee the execution of the
laws.” Id. at 499. Although the structure of independent agencies like the PCAOB may be more “efficient,
convenient, [or] useful in facilitating the functions of
government,” those “are not the primary objectives—
or the hallmarks—of democratic government.” Id.
Such virtues “will not save [a law] if it is contrary to
the Constitution.” Id. Indeed, the same logic could be
applied to Humphrey’s Executor itself. Although it may
be more efficient, more convenient, or more useful to
leave it in jurisprudential limbo, none of those features
ought to save a decision “contrary to the Constitution.”
In Aiken County, then-Judge Kavanaugh noted
that Free Enterprise Fund allowed the Court to recognize “the constitutional and practical issues that con-

21
tinue to result from the Humphrey’s Executor structure.” 645 F.3d at 444 (internal citations omitted). Although it “drew an important constitutional line by refusing to extend Humphrey’s Executor so far as to allow two levels of for-cause removal,” this likely left the
lower courts in an even greater state of confusion over
the removal doctrine than before. Id. In PHH, Collins,
and Aiken County, the judges on both sides of each decision wrestled with what Free Enterprise stood for.
Perhaps a return to Myers? A “this far but no farther”
approach to Humphrey’s Executor? A new approach entirely? Free Enterprise did not provide the Court with
the opportunity to resolve these issues. The Court
should take advantage of the opportunity the Petitioner has provided and complete that project.
III. THE COURT SHOULD HOLD THE CFPB’S
STRUCTURE TO BE UNCONSTITUTIONAL
If the Court follows Free Enterprise Fund in returning to the separation of powers principles of Myers, it
should hold the CFPB’s current structure unconstitutional because the director of the CFPB exercises the
executive power and yet the president’s ability to remove the director is limited by statute.
In evaluating the constitutionality of the removal
limitation for the CFPB director, the relevant inquiry
is a simple one: does he or she exercise the executive
power? Thankfully, this is not a close call. A clear violation allows the Court to set a ground rule that will
guide lower courts in how to expound on the doctrine
within the proper constitutional framework.
The CFPB has the authority to enforce 19 consumer protection laws, including “all but exclusive
power ‘to prescribe rules or issue orders or guidelines

22
pursuant to’” those laws. PHH, 881 F.3d at 145 (Henderson, J., dissenting). These include “expansive new
powers under Title X [of Dodd-Frank] to investigate,
charge, adjudicate, and penalize—through (inter alia)
subpoena, rescission, restitution, disgorgement and
monetary penalties” acts and practices covered by the
statute. Id. In other words, it has the power to enforce
the law. CFPB is like other independent agencies, “exercis[ing] executive power by bringing enforcement actions against private citizens.” Id. at 164–65 (Kavanaugh, J., dissenting). That the CFPB is in a “headless fourth branch of the U.S. Government” rather
than solidly in the executive branch compounds the
constitutional problem rather than saves it. Id. at 165.
This fourth branch may in some ways be more efficient than a unitary executive system where all executive power is under the president’s purview. But
“[t]he purpose of the separation and equilibration of
powers in general, and of the unitary Executive in particular, was not merely to assure effective government
but to preserve individual freedom.” Morrison, 487
U.S. at 727 (Scalia, J., dissenting). Because Congress
has insulated the CFPB director from the three
branches of government, “the Director enjoys more
unilateral authority than any other official [other than
the President] in any of the three branches of the U.S.
Government,” and “[i]ndeed, within his jurisdiction,
the Director of the CFPB is even more powerful than
the President. The Director’s view of consumer protection law and policy prevails over all others. In essence,
the Director of the CFPB is the President of Consumer
Finance.” PHH, 881 F.3d at 165–66, 172 (Kavanaugh,
J., dissenting).

23
Thankfully, the Framers also devised a solution to
statutes that deviate from the Constitution’s prescriptions: the “courts of justice,” which have the “duty . . .
to declare all acts contrary to the manifest tenor of the
constitution void.” Federalist No. 78 (Hamilton).
CONCLUSION
To bring removal doctrine back in line with Myers,
the separation of powers, and ultimately the Constitution, the Court should keep only the part of Humphrey’s Executor that permits limitations on the president’s removal power in cases of non-executive officers—officers who do not exercise the president’s unified executive power. Because the director of the CFPB
unquestionably exercises executive power through her
unilateral control over the enforcement of the nation’s
consumer protection laws, the Court should declare
the CFPB’s structure unconstitutional and void.
For the above reasons, and those stated by the Petitioner, the Court should reverse the Ninth Circuit.
Respectfully submitted,
Michael E. Rosman
CENTER FOR INDIVIDUAL
RIGHTS
1100 Conn. Ave, NW
Suite 625
Washington, DC 20036
(202) 833-8400
rosman@cir-usa.org
December 16, 2019

Ilya Shapiro
Counsel of Record
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

